U.S. Department of Labor                 Office of Inspector General
                                         Washington, DC. 20210




      September 29, 2006

      MEMORANDUM FOR:             EMILY STOVER DeROCCO
                                  Assistant Secretary for Employment
                                   and Training



      FROM:                       ELLIOT P. LEWIS
                                  Assistant Inspector General
                                   for Audit

      SUBJECT:                    Individuals Received Disaster Unemployment
                                  Assistance in Both Louisiana and Mississippi
                                  Management Letter No. 06-06-010-03-315

      INTRODUCTION

      Normally, a Management Letter is provided to be read in conjunction with an
      accompanying audit report. However, due to the proactive nature of our current
      work related to Hurricane Katrina, we will be issuing Management Letters to
      inform the Department, in this case, the Employment and Training Administration
      (ETA), of issues/problems we believe should be disclosed to help the
      Department’s programs operate efficiently and effectively while reducing the
      possibility of fraud, waste, and abuse.

      This Management Letter is an interim reporting mechanism and should be read
      with the understanding that only after the information in this Management Letter
      is evaluated/investigated by the OIG’s Offices of Audit (OA) and Labor
      Racketeering and Fraud Investigations (OLRFI), the Louisiana Department of
      Labor, and the Mississippi Department of Employment Security, can a
      determination be made as to the legitimacy of the unemployment claims
      discussed herein.

      BACKGROUND

      On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
      Alabama coasts, resulting in a national disaster. A national emergency was
      declared, making disaster unemployment assistance (DUA) available to residents
      of the affected areas who lost their jobs, or were unable to return to their jobs as
      a result of Hurricane Katrina, if they were not eligible for State unemployment
      compensation (UC).

                        Working for America’s Workforce
On September 23, 2005, Hurricane Rita hit the Texas and Louisiana
coasts, resulting in another national emergency declaration.

As Mississippi and Louisiana are border States and because states were
inundated with DUA claims as a result of Hurricane Katrina and basic
eligibility review controls were temporarily removed to expedite handling
the massive number of claims for evacuees from across the United States,
we believed the risk of multiple claims filed, and the resulting improper
payments, was significant.

The purpose of the DUA program is to provide unemployment assistance to those
individuals who become unemployed or cannot commence employment as a direct
result of a major disaster, but are not covered under the Federal or state UC
programs.

A DUA-eligible individual can receive DUA benefits only from the state in which
he/she became unemployed as a result of a major disaster. Consequently, no
individual can receive DUA benefits from more than one state for a specific
disaster.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine if individuals received Hurricane Katrina-related
DUA benefits in both Louisiana and Mississippi.

We issued Management Letter No. 06-06-009-03-315 on September 13, 2006, in
which we reported that Louisiana paid $54,782 of Hurricanes Katrina- and Rita-
related DUA to 45 individuals who also received UC from Mississippi. The
Management Letter was based on updated Katrina benefits data files with
additional Hurricanes Katrina and Rita claims with benefits paid through the week
ending December 10, 2005, in Louisiana, and December 24, 2005, in
Mississippi1. We subsequently manually updated benefit payments for any
exceptions through March 4, 2006.

We matched the benefits data files that were used for Management Letter
06-06-009-03-315 to determine if other claimants, not previously identified,
had filed DUA claims in both Louisiana and Mississippi in violation of the
law. For the 43 additional multiple DUA claims paid to 40 claimants
identified by this match, we analyzed the case files and benefits records




1
 We subsequently updated our data files through June 3, 2006, but have not yet performed any
data mining on that file for additional multiple claimants. However, due to the time that has
passed since the disaster on August 29, 2005, we do not anticipate that any new DUA claims
would have been filed after December 24, 2005.


                                              2
for all 40 claimants from both States2 to make a determination regarding in
which State the individuals could receive DUA benefits, if otherwise
eligible.

This work was conducted in conjunction with the President’s Council on Integrity
and Efficiency (PCIE) as part of the Federal Government’s examination of relief
efforts in the aftermath of Hurricanes Katrina and Rita. When we issue this
report in final, we will forward a copy to the PCIE Homeland Security Working
Group, which is coordinating Inspectors General reviews of this important
subject.

RESULTS

The States of Louisiana and Mississippi both paid 43 DUA claims to the same 40
individuals, resulting in overpayments of $74,382 in DUA benefits:

      o Louisiana overpaid 38 claims totaling $59,682 through the week ending
        March 4, 2006. Of these 38 claims, the State recovered $3,430 for 4
        claims (one was a partial recovery) from the bank that administered the
        debit card accounts the State used to deposit claimants’ benefit payments.
        Consequently, payments to 35 claimants in the amount of $56,252 remain
        unrecovered.

      o Mississippi overpaid 5 claims by $14,700 through the week ending
        February 25, 2006.

Because of the emergency nature of the Hurricane Katrina disaster, Louisiana’s
and Mississippi’s controls over determining DUA claimants’ initial eligibility were
basically nonexistent. The President pledged to provide hurricane victims access
to streamlined registration and enrollment in Federal benefit programs for which
they qualified. The Office of Management and Budget (OMB) provided
implementation policy to “ensure a citizen-centered approach in a cost-effective
manner that prevents fraud and abuse.” OMB further provided that, to eliminate
improper payments, “All new procedures that relax prepayment eligibility
verification procedures should be time-limited.” In the case of Louisiana, this
temporary suspension of controls over documentation of eligibility for Federal
benefit programs resulted in documentation not being required for 90 days, or
almost one-half of the time period during which initial DUA claims were paid.

Control problems were exacerbated by the massive evacuation of individuals
from Louisiana and Mississippi to states all across the United States. Telephone
and Internet claims were being filed nationwide to both States. Because of the
extremely high volume of claims being filed, no claim was initially denied. If the



2
    40 claimants were overpaid for 43 claims because 3 claimants were overpaid in both States.

                                                 3
individual did not qualify for UC, the States of Louisiana and Mississippi
established DUA claims for the applicants3.

As noted above, Louisiana extended the deadline for submitting eligibility
documentation to 90 days (from 21 days) from the date the DUA claim was filed.
The State continued to pay DUA to individuals who did not properly establish
eligibility even after the 90 days had passed because of the volume of
documentation that had to be processed to establish eligibility.

Furthermore, the Louisiana Governor’s decision to pay all DUA/UC claimants
through the week ending November 19, 2005, without requiring claimants to
certify weekly eligibility, further removed controls over participants’ continuing
eligibility through November 19, 2005.

We have provided the details of the overpayments made to these 40 claimants to
the OIG’s OLRFI, the States of Louisiana and Mississippi, and ETA.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training direct the
States to:

    1. Establish and collect the overpayments not already collected.

    2. Determine any other overpayments after the week ending March 4, 2006,
       made to these claimants and include them in the States’ overpayments
       and collections.

Also, because of the susceptibility for these federally-funded DUA claims to be
fraudulent, we recommend the Assistant Secretary:

    3. Continue to work with the OIG’s OLRFI and the States to expedite the
       identification of fraudulent claims for appropriate action.

AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that ETA is monitoring the States’ actions as
they establish and collect overpayments resulting from the improperly paid
benefits. ETA’s Regional Offices will continue to work with the States in this
regard, as well as in determining whether any other overpayments were made,


3
  When an individual applies for unemployment benefits, the state’s computer system generates a
monetary determination based on the individual’s base period wages that establishes the
claimant’s weekly and maximum benefit amounts, if monetarily eligible. Then the state must
manually make a non-monetary determination of eligibility based on reason for separation.


                                              4
and in ensuring other recommendations are addressed, as appropriate. The
Assistant Secretary’s response is included in its entirety as an Attachment.

OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendations
resolved. They will be closed upon receipt of documentation to support the
States’ actions to set up and recover all overpayments, as described in the
response.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the
recommendation.

If you have any questions concerning this Management Letter, please contact
John Riggs, Regional Inspector General for Audit, in Dallas at (972) 850-4003.

Attachment

cc:   Steven Law
      Deputy Secretary

      Phyllis Newby
      ETA Audit Liaison




                                       5
6
